IN THE SUPREME COURT OF THE UNITED STATES

No. 19-107
VINCENT ASARO, PETITIONER
V.

UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE

I, Amy Mason Saharia, counsel for petitioner and a member of
the Bar of this Court,
copies

of

the

certify that,

Petitioner's

on August 12,

Supplemental

Brief

in

2 019,

three

Support

of

Petition for a Writ of Certiorari in the above-captioned case were
sent, by third-party commercial carrier for delivery overnight and
by electronic email, to the following counsel:
Noel J. Francisco, Esq.
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W., Room 5616
Washington, DC 20530
SupremeCtBriefs@usdoj.gov
I further certify that all parties required to be served have
been served.

